CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the document complies with
the word limitations of Rule 33.1(g), and that it contains 7,926 words, excluding the
parts of the document that are exempted by Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Prens 1
Executed on March 9, 2020 Z Que Abe g
Mary ne Dowd

ARENT’FOX LLP

1717 K Street, NW
Washington, D.C. 20006
202-857-6000
mary.dowd@arentfox.com
